Memorandum from the Inspector General, ET 4C-K



August 22, 2005

Bill Baxter, ET 12A-K
Skila Harris, ET 12A-K

AUDIT 2005-056F – REVIEW OF TENNESSEE VALLEY AUTHORITY’S FISCAL YEAR
2005 THIRD QUARTER FINANCIAL INFORMATION



The Tennessee Valley Authority (TVA) contracted with the independent certified public
accounting firm of PricewaterhouseCoopers LLP (PwC) to perform a review of TVA’s
interim financial information for the third quarter of fiscal year 2005 in accordance with
Government Auditing Standards, which incorporate financial audit and attestation
standards established for nonpublic companies by the American Institute of Certified
Public Accountants. The objective of PwC’s review was to provide a basis for
communicating whether any material modifications should be made to the interim financial
information for conformity with generally accepted accounting principles. The review was
substantially less in scope than would be required for the expression of an opinion on the
financial statements taken as a whole. Accordingly, PwC’s review of TVA’s interim
financial information did not provide a basis for expressing an opinion on TVA’s financial
statements.

Under the Inspector General Act, the Inspector General is responsible for taking
appropriate steps to assure any work performed by nonfederal auditors, including PwC,
complies with Government Auditing Standards. In keeping with these responsibilities, the
Office of the Inspector General (OIG) conducted an audit to determine whether PwC
performed its review in conformity with Government Auditing Standards. We reviewed
documentation of analytical procedures and inquiries performed by PwC, attended key
meetings during the review, and performed other procedures as we deemed appropriate
under the circumstances. Our review was performed in accordance with Government
Auditing Standards.

In summary, our review disclosed no instances where PwC did not comply, in all
material respects, with Government Auditing Standards. PwC was not required to, and
did not, issue a report on the results of its review; however, communications required by
Government Auditing Standards were made by PwC to appropriate parties, including
TVA’s Board, OIG, and Chief Financial Officer.




Richard W. Moore

RLT:SDB
cc: See page 2
Bill Baxter
Skila Harris
Page 2
August 22, 2005


cc:   Mr. G. Robert Powell
      PricewaterhouseCoopers LLP
      10 Tenth Street, Suite 1400
      Atlanta, Georgia 30309-1398

      Jamie E. Keith, ET 5A-K
      Tom D. Kilgore, ET 12A-K
      Michael E. Rescoe, ET 12A-K
      Ellen Robinson, ET 12A-K
      Randy P. Trusley, WT 5C-K
      OIG File No. 2005-056F
